Before the Committee on Homeland Security and Governmental Affairs
Subcommittee on Financial and Contracting Oversight
United States Senate




                          The Success of FAA’s
For Release on Delivery
Expected at
2:30 p.m. EST
Tuesday
January 14, 2014          Air Traffic Controller
                          Optimum Training
CC-2014-009



                          Solution Relies on Sound
                          Contracting and Program
                          Management Practices
                          Statement of
                          Mary Kay Langan-Feirson
                          Assistant Inspector General for Acquisition
                             and Procurement Audits
                          U.S. Department of Transportation
Chairman McCaskill, Ranking Member Johnson, and Members of the Subcommittee:

Thank you for inviting me here today to testify on the Federal Aviation Administration’s
(FAA) $859-million Air Traffic Control Optimum Training Solution (ATCOTS) contract.
The contract was intended to provide up to 10 years of support to train approximately
17,000 new air traffic controllers FAA planned to hire. However, since the contract was
awarded in September 2008, we have identified significant weaknesses that undermine
efforts to meet three key ATCOTS goals: reduce training costs, reduce training time, and
leverage training innovations to make the training program more efficient. In addition,
FAA exhausted the contract’s 5-year base funding 1 year earlier than planned after
experiencing cost overruns totaling about $89 million.

Our reviews have identified four primary weaknesses that undermine FAA’s efforts to
achieve its ATCOTS training goals and to maintain a sufficient cadre of fully trained air
traffic controllers. Those weaknesses concern (1) training requirements, (2) training
innovations, (3) use of award and incentive fees, and (4) contract oversight.


IN SUMMARY
FAA has yet to clearly define its controller training requirements for the ATCOTS
contract, including the number of controllers who will need to be trained and the types of
training needed. Without clearly defined training requirements, FAA cannot develop
realistic estimates of its controller training costs or hold the contractor accountable for
desired outcomes. FAA also has not provided sufficient contract funding for training
innovations—even though the contractor’s proposal was dependent on training
innovations to stay within proposed costs, which were 29 percent lower than FAA’s
estimates. Further, FAA paid over $17 million in award fees and $14 million in incentive
fees that were not effective in motivating the contractor to achieve desired outcomes.
While FAA has taken certain actions to improve program and contract oversight—such
as implementing a tool to better prioritize where training is needed and consolidating
training operations under one office—FAA has not adequately maintained ATCOTS
contract files or effectively communicated with contract oversight staff at air traffic
facilities regarding contract management issues, such as instructor staffing reductions and
program office roles and responsibilities.


BACKGROUND
ATCOTS is a performance-based 1 contract that includes cost-plus-incentive-fee, cost-
plus-award-fee, and firm-fixed-price components. The contract consisted of a 5-year base

1
 Performance-based contracting lets Government agencies acquire services using contracts that define what is to be achieved, not
necessarily how the work is done. The idea is that contractors have the freedom to define how they will achieve the objectives,
which allows them to use innovative approaches.

                                                                                                                              1
period, worth $437 million, and two option periods (a 3-year period and a 2-year period),
worth $422 million. The ATCOTS contract outlines six key training goals: (1) improve
quality and consistency of training, (2) reduce training costs, (3) reduce training time,
(4) leverage best practices and innovation to provide comprehensive training, (5) develop
flexible training that can be adapted to meet changing requirements, such as new Next
Generation Air Transportation System (NextGen) systems, and (6) develop flexible
training that can be adapted around candidate competencies.

Under the terms of the contract, the contractor provides classroom and simulator
instruction, course and curriculum development, and administrative and program support
services at the FAA Academy and air traffic facilities nationwide primarily for new and
developmental 2 controllers. The contractor also provides proficiency and specialized
training to Certified Professional Controllers (CPC). 3 In addition, the contractor must
train Certified Professional Controllers in Training (CPC-IT)—controllers who are
already certified but require site-specific training when they transfer to different facilities
or move to different areas within a facility. FAA retains control for the overall training
program as well as for recruiting and hiring controller candidates and conducting on-the-
job training 4 at air traffic facilities.

In September 2010, we reported that FAA’s weak acquisition practices—including a
failure to clearly define requirements and a lack of effective contract oversight—
contributed to cost overruns of $46 million in the first 2 years of the program. 5 At the
Chairman’s request, we initiated a follow-up review of the ATCOTS contract. In our
report issued in December 2013, 6 we determined that FAA exhausted the contract’s
5-year base funding after 4 consecutive years of cost overruns totaling about $89 million.
As a result, 1 year of training support was eliminated from the contract. During our audit,
we met with the FAA Acting Administrator in July 2012, to discuss our concerns that the
contract was about to run out of funds. FAA ultimately exercised the first 3-year option
period to continue training; however, FAA did not evaluate its additional training
requirements for that period.




2
  Developmental controllers are newly hired controllers that have graduated from the FAA Academy and been assigned to air
traffic facilities for field training (classroom and lab instruction and on-the-job training).
3
  CPCs are controllers who have been certified on all areas within their assigned location.
4
  On-the-job training occurs when a developmental controller is directing live traffic one-on-one with a CPC. This training begins
after developmental controllers complete ATCOTS-related classroom and simulator training.
5
  FAA’s Air Traffic Controller Optimum Training Solution Program: Sound Contract Management Practices Are Needed To
Achieve Program Outcomes (OIG Report Number AV-2010-126), Sept. 30, 2010.
6
  FAA Needs To Improve ATCOTS Contract Management To Achieve Its Air Traffic Controller Training Goals (OIG Report
Number ZA-2014-018), Dec. 18, 2013.

                                                                                                                                2
LACK OF WELL-DEFINED TRAINING REQUIREMENTS CONTINUES
TO IMPEDE FAA’S EFFORTS TO ESTIMATE COSTS AND REDUCE
TRAINING TIMES
Since our September 2010 report, FAA has taken some steps to better assess training
needs, such as use of enhanced program management tools to better prioritize where
training is needed. However, FAA has yet to clearly define its controller training
requirements or determine the number of controller training hours needed—
recommendations we made in 2010. 7 Without clearly defined training requirements, FAA
cannot develop realistic estimates of its controller training costs or hold the contractor
accountable for desired outcomes. The lack of well-defined requirements has also
contributed to increases in the time it takes to train controllers.

FAA Has Yet To Clearly Define Its Controller Training Requirements
Within the first year of the ATCOTS contract, it became clear that FAA had greatly
underestimated its developmental and CPC training needs and had not anticipated the
impact of new training requirements, such as those needed for the introduction of new
NextGen systems into the National Airspace System. For example:

• During the first year, the ATCOTS contractor estimated that a total of
  5,620 developmental controllers needed training—41 percent more than FAA’s
  original pre-award estimate of 4,000 total developmental controllers. As a result, the
  contractor was required to train significantly more controllers than expected;

• FAA’s original requirements did not quantify the number of CPC-ITs who required
  training. Over 600 CPC-ITs required training in 2009—a number that grew to over
  1,100 in 2012—which increased the number of training hours the contractor was
  expected to provide.

Consequently, the ATCOTS contract costs grew by 35 percent during the first year alone.
However, FAA has still not yet clearly defined its total controller training requirements.
For example, the ATCOTS contract requires the contractor to provide proficiency
training on both new and existing air traffic controller systems, 8 but FAA has not
quantified these requirements. As a result, the contractor’s proposal did not include
sufficient training hours for new systems—such as the En Route Automation
Modernization, a key NextGen program—which required 77,736 hours of training during
the first contract year.
7
  Specifically, we recommended that FAA determine (1) if the existing contract mechanism could be effectively modified to
achieve ATCOTS program goals within the original contract estimate of $859 million or (2) update the cost estimates and
requirements for its training needs and develop criteria for determining whether the Agency should exercise options in the
contract.
8
  These systems include En Route Automation Modernization, Standard Terminal Automation Replacement System, and
Automatic Dependent Surveillance-Broadcast.

                                                                                                                        3
In September 2010, we reported that FAA’s Annual Work Plan (AWP)—a tool for
identifying and reporting training needs to the contractor—did not adequately capture
FAA’s training requirements. Since we issued that report, FAA has established additional
controls to better capture training requirements. For example, FAA has improved its
AWP, which now defines the number and types of students, student training levels,
training locations, and the dates by which students must be trained. FAA also created a
tool to better verify training hours being incurred at individual air traffic facilities.
However, the AWP still does not capture all of FAA’s training requirements, such as
proficiency training requirements for both new and existing systems. Without a sound
AWP or clearly defined training requirements, FAA remains at risk for underestimating
its training costs.

Increases in Training Requirements Have Contributed to Cost Overruns
Without clearly defined requirements that include all of FAA’s air traffic controller
training needs, FAA could not develop a realistic estimate of its training costs to ensure
that sufficient funding is available for training. For 4 consecutive years, ATCOTS
experienced cost overruns totaling about $89 million, which exhausted the contract’s
5-year base funding in 4 years. Specifically, FAA chose to exercise the contract’s first
3-year option period 1 year ahead of time to continue training support when the base
period funding ran out, reducing the contract’s total performance period by 1 year.

To limit future cost overruns on the ATCOTS contract, the contractor reduced contractor
training staff by about 44 percent—from 1,312 to 738 employees—between September
2008 and August 2012. To compensate for this reduction, FAA plans to increase the
amount of internal training performed by CPCs. FAA acknowledged that the contractor
can provide training at a lower cost than CPCs, who are paid higher salaries than
contractor staff. In addition, internal training may also lead to increases in CPC overtime
pay. CPC overtime costs can include overtime hours for CPCs conducting training as
well as overtime hours for CPCs taking on the controller responsibilities of those taken
off the floor to conduct training.

However, FAA does not account for its total internal training costs. For example, FAA
only tracks costs associated with time CPCs spend conducting on-the-job training. FAA
does not account for the costs of using CPCs to conduct classroom and simulator training
or the associated backfill overtime costs to replace CPCs on the control room floor. As a
result, FAA cannot truly assess whether there might be a more cost-efficient way to
provide training to its air traffic controllers.




                                                                                         4
Controller Training Times Have Significantly Increased
Between fiscal years 2009 and 2012, the time to certify controllers increased by an
overall average of 41 percent—taking 9 months longer on average to certify each
controller. While average training times are the longest at en route facilities, 9 certification
times increased the most at terminal facilities, with an average increase of 57 percent, or
almost 11 months longer on average to certify controllers (see figure 1).

Figure 1. Average Time To Certify Controllers Between Fiscal Years
2009 and 2012
    Years
                                                                                                         En Route
       3
                                                                                                  3.07
                                                                        2.89                             Overall
                                              2.66                                                2.68
                                                                                                         Terminal
                                                                        2.51
                    2.43                                                                          2.42
                                                                        2.28
       2                                      2.21

                     1.9                      1.95


                    1.54


       1
                    2009                      2010                      2011                      2012


Source: FAA training data

Air traffic and training managers attribute the increased training times to decreased
contractor support; increases in training requirements, including training related to
airspace redesign and new technology; and increased proficiency training and refresher
training for CPCs in response to changes in regulations.

FAA facility managers we spoke with also warn that contractor staffing reductions may
further increase training delays. While officials from FAA’s ATCOTS program office
told us that lower hiring and retirement rates have reduced the Agency’s overall training
needs, more than half of the managers at 13 air traffic facilities we contacted believe they
do not have the capacity to provide internal training, given current staffing levels and
workload demands. Further, FAA has not collected data on whether facilities have the
capacity to provide training, especially at high-traffic facilities. If CPCs are not
immediately available to teach, there may be training backlogs.



9
  En route facilities manage high-altitude air traffic. Terminal facilities vary in complexity and manage air traffic in and around
airports.

                                                                                                                                 5
TRAINING INNOVATIONS INTENDED TO REDUCE COSTS HAVE NOT
BEEN ACHIEVED
FAA’s independent Government cost estimate determined that the 10-year ATCOTS
contract would cost $1.2 billion—nearly $358 million, or 29 percent, more than the
contractor’s proposed costs. To close this gap, the ATCOTS contractor planned to
implement training innovations—such as pilot programs for new capabilities to reduce
training time and cost, and a proposed “hub and spoke” system to provide services at
multiple locations.

Prior to award, FAA’s technical management evaluation team determined that the
contractor’s proposed costs were unrealistic and concluded that there was a 60- to
80-percent likelihood that training needs would not be achieved. However, FAA’s source
selection board did not require the contractor to revise its proposal and ultimately
determined that the contractor could overcome weaknesses in its proposed approach.

However, FAA budgeted less than 2 percent of the ATCOTS base contract value for
training innovations—a key factor for reducing costs. The contractor’s lower bid was
based on the assumption that it could reduce training hours by 30 percent by
implementing training innovations. In practice, the $16.7 million that FAA dedicated for
training innovation proved insufficient to adequately implement the contractor’s
innovation ideas. According to the contractor, FAA rejected the majority of the
11 proposals it submitted for training innovations. FAA officials told us that the
contractor’s process improvement and training innovation proposals were technically
deficient and too costly. Instead, FAA used most of the budget associated with innovation
to implement the Agency’s innovations rather than the contractor’s.

The lack of training innovations is particularly problematic given the need to make large-
scale, technological improvements to the training program and train controllers on future
NextGen technologies. FAA facility managers stated that the introduction of NextGen
technologies has substantially increased controller training requirements. Without
training innovations that can be adapted to new technologies, the arrival of future
NextGen systems may lead to additional training backlogs.




                                                                                        6
FAA HAS NOT EFFECTIVELY USED AWARD AND INCENTIVE FEES TO
HOLD THE CONTRACTOR ACCOUNTABLE FOR ACHIEVING DESIRED
OUTCOMES
FAA has not leveraged contract incentives to hold the contractor accountable for
achieving desired outcomes. Specifically, FAA paid the contractor over $17 million in
award fees and paid another $14 million in incentive fees despite 4 consecutive years of
cost overruns totaling about $89 million.

The ATCOTS contract allows the contractor to earn both incentive fees and award fees
for containing costs, a practice that is inconsistent with FAA’s Acquisition Management
System (AMS) guidance. AMS states that care must be exercised to ensure that
combinations of cost-control award and incentive fees do not result in contractors making
trade-off decisions inconsistent with FAA’s objectives. In addition, FAA’s Award Fee
Contracting Guidance states that no performance element—such as cost—should be
incentivized more than once. Contrary to its guidance, FAA paid the contractor
$5 million in cost-related award fees and $14 million in incentive fees despite
4 consecutive years of significant cost overruns. The incentive fees were not effective at
controlling costs because FAA continually increased target costs. However, FAA’s AMS
states that an incentive fee should only be used when a reasonable and attainable cost
target can be established.

In addition to cost-related award fees, the Agency paid another $12.3 million in award
fees that were intended to motivate the contractor to achieve FAA’s training goals but
sometimes forced the contractor to make trade-off decisions inconsistent with other goals.
For example, FAA paid the contractor a portion of the award fee for meeting a
performance measure related to staffing efficiency, which called for the contractor to stay
within a set range of staffing hours. However, the contractor stated that it was not
motivated to optimize staffing or lower staffing costs because any efforts to reduce
staffing below the set range of hours would have lowered its award fee in this category.

In September 2012 (the beginning of the first option period), FAA introduced a new
award fee structure for controlling costs that requires the contractor to make trade offs
that defeat the contract’s larger goal of providing sufficient controller training.
Specifically, the new structure provides that FAA will not pay the contractor any award
fees if (1) contract costs exceed the cost target or (2) the contractor does not deliver
sufficient training. However, in April 2012 the contractor decreased its instructor staffing
to avoid exceeding cost targets and, therefore, could not provide sufficient training
support. As a result, FAA did not pay the contractor an award fee for any performance
measure for this period. This represents an ineffectively designed measure because it
offset the ability to motivate the contractor to achieve various quality, cost, and schedule
objectives for the contract. Specifically, if the contractor pays the amount needed to

                                                                                          7
ensure training levels, then it is penalized for exceeding cost targets. Conversely, if the
contractor remains within cost targets, then it is penalized for not meeting training
levels. An effective contract award structure requires each contract goal to be separately
measured and incentivized without impeding the achievement of other measures.


FAA HAS NOT PROVIDED ADEQUATE CONTRACT OVERSIGHT
While FAA has taken certain actions to improve program and contract oversight, such as
implementing a tool to better prioritize where training is needed and consolidating
training operations under one office, oversight weaknesses remain. Specifically, FAA has
not adequately maintained ATCOTS contract files or effectively communicated with
FAA contract oversight staff at air traffic facilities who help manage the contract.

In September 2010, we reported that FAA did not have controls to ensure it received
services billed by the contractor. During the first year of the contract, the ATCOTS
program office authorized payment for 11 contractor invoices, totaling $45 million,
without the FAA Academy verifying whether the services billed were actually provided.
Since our 2010 report, FAA has made some improvements to its oversight controls and
contract administration. For example, FAA reorganized and consolidated training
operations under one office and implemented a tool to better prioritize where training is
needed. In addition, an FAA program representative stated that the Agency has
implemented the following improvements in contract management:

• Implemented performance and cost boards to monitor contractor performance;

• Required the contractor to provide more detail about the costs incurred, improving
  invoice review procedures; and

• Required the contractor to reorganize its management structure to reduce inefficiency.

Despite these reported actions, other weaknesses persist. For example, FAA has not
adequately maintained contract files, which exist in two separate locations and do not
contain a complete history of all contract actions. Complete contract files allow newer
staff to readily access and understand the contract’s complete history, which has proven
especially important for ATCOTS given the high turnover in critical program staff that
the program has experienced. Since September 2010, FAA has completely re-staffed its
ATCOTS program office and contract management office. In total, the ATCOTS
program has had four program managers, six contracting officers, and eight contracting
officer representatives since the contract award, making it all the more critical to have
complete contract files.

FAA’s ATCOTS program office depends on FAA contract oversight staff at individual
air traffic facilities to help manage the contract, but during this review we determined that

                                                                                           8
the program office does not effectively communicate with the facilities or provide
adequate oversight on matters such as staffing reductions and expectations about program
office roles and responsibilities. Many facility managers did not know who managed the
ATCOTS program and were not always provided with detailed guidance. Moreover,
FAA’s ATCOTS program office did not enforce the requirement that FAA contract
oversight staff conduct semi-annual evaluations of the contractor’s performance. The lack
of evaluations prevents the program office from identifying problems and taking
appropriate corrective actions.

Finally, FAA has yet to perform an integrated baseline review (IBR) of the ATCOTS
program, despite cost overruns and limited training delivery. An IBR can help agencies
pinpoint problems and make decisions on the amount of services required and additional
funding needed to obtain them. Specifically, an IBR examines whether (1) all program
requirements have been addressed, (2) all risks have been identified and appropriate
mitigation plans are in place, and (3) planned resources are sufficient to complete the
work. Without an IBR, it will be difficult for FAA to determine whether it can achieve its
air traffic controller training goals under the current ATCOTS contract.

Last month, we issued our audit report updating the status of the ATCOTS contract. In its
response to our report, FAA generally agreed with our recommendations and stated that it
has begun taking actions to address them. For example, FAA stated that it rolled out a
new training planning tool and designated two quality reliability officers to provide
surveillance. However, we are requesting further information from the Agency to verify
whether these actions meet the intent of our recommendations. Additionally, FAA
announced that it plans to award a new contract to replace ATCOTS as early as fall 2014.
To avoid repeating the problems with ATCOTS, FAA will need to ensure that it
completes an IBR and clearly defines its training requirements before awarding the new
contract—one of the recommendations from our December report. Since FAA recently
stated its intentions to address our report recommendations, we will continue to monitor
FAA’s progress in implementing them and provide this Committee, the Secretary, and
FAA with future updates on the ATCOTS program.

That concludes my statement Chairman McCaskill and Ranking Member Johnson, I will
be happy to answer any questions you or the other Members of the Subcommittee may
have.




                                                                                        9
